~
.

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts. of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that the original
and 2 copies of the foregoing Motion for Leave to File
Brief as Amici Curiae and Brief of the American
Medical Association and the Louisville Metro
Department of Public Health and Wellness in Support
of Respondent in No. 20A96, Danville Christian
Academy, Inc., Commonwealth of Kentucky, ex rel.
Attorney General Daniel Cameron v. Andy Beshear,
Governor of Kentucky, was sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 8th day of December, 2020:
Barry Lee Dunn
Kentucky Office of the Attorney General
700 Capital Avenue
Suite 118
Frankfort, KY 40601
(502) 696-5653
barry.dunn@ky.gov
Counsel for Applicants

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Amy D. Cubbage
General Counsel & Counsel of Record
Office of the Governor
Commonwealth of Kentucky
700 Capitol Ave., Suite 106
Frankfort, KY 40601
(502) 564-2611
Amy.Cubbage@ky.gov
Counsel for Respondent
Leonard A. Nelson
Counsel of Record
Erin G. Sutton
American Medical Association
330 N. Wabash Ave.
Suite 39300
Chicago, Illinois 60611
(312) 464-5532
Leonard.nelson@ama-assn.org
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 8, 2020.

E~

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

Jrtvt~. ,~

~ ~ &)

Notary Public
[seal]

